                       TESTIMONY OF
                    EVELYN R. KLEMSTINE
          ASSISTANT INSPECTOR GENERAL - AUDITS
               OFFICE OF INSPECTOR GENERAL
              U.S. DEPARTMENT OF STATE AND
         THE BROADCASTING BOARD OF GOVERNORS


                      BEFORE THE


             U.S. HOUSE OF REPRESENTATIVES
    COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
    SUBCOMMITTEE ON TECHNOLOGY, INFORMATION POLICY,
 INTERGOVERNMENTAL RELATIONS AND PROCUREMENT REFORM


                          ON


 HUMAN TRAFFICKING AND ABUSIVE LABOR PRACTICES INVOLVING
 THIRD-COUNTRY NATIONALS HIRED TO PERFORM SERVICES UNDER
CONTRACTS OR SUBCONTRACTS TO THE FEDERAL GOVERNMENT ON
                   OVERSEAS CONTRACTS


                     MARCH 27, 2012




                           1
      Thank you Chairman Lankford, Ranking Member Connolly, and Members of

the Subcommittee for the opportunity to discuss our views on strengthening

enforcement of trafficking-in-persons (or TIP) in government contracts.

      Our Office of Inspector General (OIG) commends the subcommittee for its

leadership in developing critical legislation on TIP enforcement in government

contracts.

      Mr. Chairman, OIG believes that TIP compliance can be better monitored by

strengthening the legal framework for enforcing TIP compliance and prosecuting

TIP violators; establishing requirements in future contracts and the Federal

Acquisition Regulation (FAR) that make the contractor accountable for

compliance with TIP laws and regulations; and holding Contracting Officers (COs)

and Contracting Officer’s Representatives (CORs) accountable for the

enforcement of TIP compliance. In addition, the OIG will continue to vigorously

perform its oversight role to ensure that the Department is properly discharging

its programmatic responsibilities.

   1. Strengthen the Legal Framework


      To ensure that the Department of Justice (DOJ) and other Federal agencies

have criminal sanctions available for use in combating TIP violations, the OIG

                                         2
agrees with DOJ’s support of a robust and comprehensive Civilian Extraterritorial

Jurisdiction Act (CEJA) and also the proposed Blumenthal Amendment to 18 U.S.C.

§ 1351.

      CEJA would provide clear and unambiguous criminal jurisdiction to

prosecute non-Department of Defense government contractors and employees

for a broad spectrum of overseas misconduct, some of which are TIP

violations. We do, however, suggest CEJA use the same approach as the Military

Extraterritorial Jurisdiction Act (MEJA) and provide jurisdiction over all conduct

outside the United States that would constitute an offense punishable by

imprisonment for more than one year (18 U.S.C. felony offenses). The MEJA

approach provides the greatest flexibility for fighting crime associated with U.S.

overseas activities and reduces the potential that CEJA might be rendered

confusing or obsolete by future amendments to the specific crimes enumerated in

18 U.S.C.

      The Blumenthal Amendment to 18 U.S.C. §1351 would specifically

criminalize fraudulent recruiting, soliciting and hiring practices for purposes of

work on U.S. Government contracts performed outside of the United States or on

military installations or missions or other property or premises owned/controlled




                                          3
by the U.S. Government, clarifying the availability of criminal sanctions for this

key aspect of the TIP problem.

      CEJA, the Blumenthal Amendment to 18 U.S.C. § 1351, and the modification

to FAR 52.222-50 will collectively enable U.S. Government authorities to better

enforce and prosecute TIP violations, especially in contingency environments, and

provide a greater deterrent by making the threat of criminal sanctions more

imminent.

   2. Establish Specific Requirements in Future Contracts


      OIG supports the proposed amendments to the Trafficking Victims

Protection Reauthorization Act (TVPRA), Section 111, which would require a

condition in every contract, grant, or cooperative agreement that authorizes

Federal departments or agencies to terminate a contract if the contractor or

subcontractor engages in human trafficking or uses forced labor. In addition,

future contract solicitations, where it is known that the labor force will include

third-country nationals should, at a minimum, require the following provisions:

             1.    The contractor shall provide the contracting agency a detailed

      description of housing accommodations it intends to provide for its foreign

      workers.



                                          4
            2.     The contractor shall provide workers with standard contracts

      in English and their respective native language and include policies on

      wages, overtime rates, allowances, salary increases, the contract term,

      leave accrual, and other personnel matters.

            3.     The contractor shall provide workers with written information

      about labor laws, including the U.S. Government’s zero tolerance policy

      about TIP, in English and the workers’ native languages.

            4.     The contractor shall provide written assurance that it violates

      no U.S., host-country, or third-country labor laws, including recruiting third-

      country national employees and improperly retaining employee passports

      and other personal documents.

            5.     The contractor shall provide the contracting agency a

      repatriation plan 120 days prior to completion of the contract.

    All future contracts that include the use of third-country nationals as part of

their labor force should include penalties for TIP non-compliance. In addition,

incentives should be used in the contract that motivate prime contractors to

“police” themselves and their subcontractors. An incentivized, self-policing prime

contractor community with active and effective COR oversight will increase the

likelihood of success in minimizing TIP violations and other overseas contracting

                                         5
issues. The proposed amendments to TVPRA, Section 111 are a step in the right

direction.

    In addition, we believe that the FAR should be modified so that clause

52.222-50, “Combating Trafficking in Persons,” includes the same language found

in FAR 52.203-13(b)(3)(i), “Contractor Code of Business Ethics and Conduct.”

Specifically, OIG believes that FAR 52.222-50 should state:

             The contractor shall timely disclose, in writing, to the agency Office of

    the Inspector General (OIG), with a copy to the Contracting Officer, whenever,

    in connection with the award, performance, or close out of this contract or

    any subcontract thereunder, the Contractor has credible evidence that a

    principal, employee, agent, or subcontractor of the Contractor has committed

    a violation of Federal criminal law involving TIP.

   The inclusion of this language would require timely, written reporting of

possible TIP violations to the OIG, which is not currently required.

   3. Hold COs and CORs Responsible for TIP Oversight


      COs and CORs are at the front lines of TIP enforcement around the world

and must effectively monitor and enforce standards as well as report violations.

The quality, quantity, and location of CORs are a key to combating TIP and other



                                            6
contract oversight problems. CORs should be made aware of the importance of

their role, and they should receive specific, regularly updated, training on TIP.

      In March 2011, the Department of State issued Procurement Information

Bulletin (PIB) 2011-09. Although the PIB requires that the FAR’s TIP clause be

included for solicitations and contracts over the micro-purchase threshold and

requires a housing plan where applicable, it merely provides COs and CORs with

suggested actions to follow to minimize the risk of TIP violations in government

contracts.

      Although the Department of State’s PIB is a good starting point, much of

the content of the guidance is not mandatory within the Department and is not

applicable to all Federal agencies. Federal agencies could improve TIP oversight

by drafting regulations requiring their CORs to:

             1.    Make at least semiannual, unannounced visits to the

      contractor-provided housing site.

             2.    Interview contractor employees to ensure that they have been

      briefed on the TIP clause and obtain copies of TIP-related training

      materials.

      Lastly, the agency should require all COs and CORs to document TIP

monitoring programs in the contract files.

                                          7
       OIG will use a cross-disciplinary approach to oversee the Department’s

overall efforts to enforce its zero tolerance policy regarding TIP-related violations.

OIG will continue to perform audits, evaluations, inspections and investigations of

areas vulnerable to TIP abuses.

      Since the November 2011 hearing, Are Government Contractors Exploiting

Workers Overseas? Examining Enforcement of the Trafficking Victims Protection

Act, the Office of Audits has been conducting a compliance follow up review of its

January 2011 report, Performance Evaluation of Department of State Contracts to

Assess the Risk of Trafficking in Persons in Four States in the Cooperation Council

for the Arab States of the Gulf, to determine whether the Department took

corrective action in response to our recommendations. The preliminary results of

that review indicate that the Department has taken some corrective action, to

include improvements in third country national housing in Riyadh, issuance of PIB

2011-09, and improved communication with the contractors concerning the laws

and regulations relating to passport retention. However, the Office of Audits has

also identified other third country national housing conditions that have not

improved and at one location it has deteriorated since we issued the January

2011 report. In addition, the Department has not taken action on other

recommendations such as requiring contractors to provide third country national

                                          8
employees with contracts in their respective languages that include policies on

wages, overtime rates, contract terms, leave approvals, and other personnel

matters stating that it is too expensive and futile because the third country

nationals cannot read. We expect to issue the compliance follow up review

report in May 2012.

      Our Office of Inspections continues to include reviews of contract

provisions and monitoring of the treatment of third country nationals working on

U.S. Government contracts in the course of its post inspections. A report of

inspection of the Office to Combat Trafficking in Persons will soon be finalized,

but that is focused on that office’s primary role to report on and assist country

efforts to combat trafficking.

      Our Office of Investigations (INV) has been engaging the Department of

Justice (DOJ) Human Trafficking Prosecution Unit, as well as other Federal

investigative organizations with TIP responsibilities, in a proactive effort to

determine current law enforcement involvement and ways to broaden

involvement in combating TIP abroad. In addition, INV has created a position to

manage the OIG TIP investigative program, serving as a primary point of contact

and liaison for TIP-related investigative matters. Currently INV is coordinating

with the Bureau of Diplomatic Security and the Office to Monitor and Combat

                                           9
Trafficking in Persons to establish policy designating the OIG Investigation Hotline

as the office to which employees and contractors should report suspected TIP

violations. In addition, as a new member of the TIP working group in Baghdad,

which includes members from other Department entities, Department of Justice,

the International Organization for Migration, and non-governmental

organizations, INV is now better able to reach areas and victims which they

previously could not. Since the November 2011 hearing, INV has received two

allegations related to TIP violations abroad and has one open TIP related

investigation. Although prior to the November 2011 hearing, in June 2011, as a

result of an OIG investigation, a company providing security services to Embassy

Kabul agreed to pay $7.5 million to the Department of Justice to settle allegations

that the company had engaged in multiple contract violations, including violating

TIP-related FAR provisions.

        Once again, thank you, and I am pleased to answer any questions you may

have.




                                         10
